Supreme Court, U.S.
FILED

WAIVER

JAN 1 9 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-969

Freedom Watch, Inc., et al.

v.

Google Inc., et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Google LLC (formerly Google Inc.)

0 I am a member of the Bar of the Supreme Court of the United States.
E I am not presently aL
me ber of the B of this Court. Should a response be requested, the response
will be filed by B\ar
Signature
Date.

Jan. 19, 2021
John E. Schmidtlein
n Ms. ❑
El Mr.
Williams & Connolly LLP

(Type or print) Name
Firm

Address

725 Twelfth Street, N.W.

City & State
Phone

Mrs. El Miss

Washington, DC

202-434-5000

Zip 20005
Email jschmidtlein@wc.corn

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Larry Klayman

RECEIVED
JAN 2 5 2021
1.F7iCE CP THE CLERK
COURT U.S.

